September 12, 2008

LYNN MALCOLM,
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT:        Transmittal of Audit Report – Independent Report on Withholdings and
                Contributions for Health Benefits, Life Insurance, Retirement, and
                Employee Headcount Data (Report Number FT-AR-08-013)

Attached is a copy of the subject report provided to the U.S. Office of Personnel
Management (OPM) Office of Inspector General (OIG) (Project Number
08BD012FT000). The report is provided for information only and requires no
management action.

At the request of the OPM OIG, we performed agreed-upon procedures in accordance
with generally accepted government auditing standards and attestation standards
established by the American Institute of Certified Public Accountants. The procedures
were performed solely to assist the OPM in verifying employee withholdings and
employer contributions reported on the Report of Withholdings and Contributions for
Health Benefits, Life Insurance, and Retirement for three selected payroll periods. We
also verified information presented in the Supplemental Semiannual Headcount Report
for September 2007 and March 2008.

If you have any questions, please contact John Cihota, Deputy Assistant Inspector
General for Financial Accountability, or Lorie Nelson, Director, Financial Reporting, at
(703) 248-2100.
   E-Signed by Gordon Milbourn
 VERIFY authenticity with ApproveIt




Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachment

cc: H. Glen Walker
    Stephen J. Nickerson
    Katherine S. Banks
September 12, 2008

HONORABLE PATRICK E. McFARLAND
INSPECTOR GENERAL
UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

SUBJECT: Audit Report – Independent Report on Withholdings and Contributions for
         Health Benefits, Life Insurance, Retirement, and Employee Headcount Data
         (Report Number FT-AR-08-013)

We have performed the procedures agreed upon by the Inspector General and the
Chief Financial Officer of the U.S. Office of Personnel Management (OPM). The
procedures were performed solely to assist the OPM in verifying employee withholdings
and employer contributions reported on the Report of Withholdings and Contributions
for Health Benefits, Life Insurance, and Retirement for the payroll periods ended August
31, 2007; December 21, 2007; and February 29, 2008; and the enrollment information
reported on the Supplemental Semiannual Headcount Report for September 2007 and
March 2008. See Appendix A for additional information about this engagement, and
Appendix B for a description of the procedures.

Conclusion

Generally, we were able to verify the employee withholdings, employer contributions,
and enrollment information the U.S. Postal Service reported and transferred to the OPM
for health benefits, life insurance, and retirement. However, we identified two reportable
issues based on the procedures provided by the OPM.

Aggregate Base Salary1

Aggregate base salaries for Civil Service Retirement System (CSRS) offset employees
on the Supplemental Semiannual Headcount Report did not accurately reflect the actual
salaries paid for the September 2007 or March 2008 reporting periods. This occurred
because the U.S. Postal Service calculated the salaries by dividing the dollar amount of
the employee contributions by the offset retirement rate instead of reporting actual
salaries subject to a retirement deduction. This method does not accurately reflect
actual salaries paid because CSRS offset employee contributions are calculated using
two different retirement rates. The full CSRS rate is applied to pretax benefits (health

1
    Procedure Number 5.
Independent Report on Withholdings and Contributions for Health Benefits,                              FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data


benefits, flexible spending for health care, flexible spending for dependent care, and
commuter benefits),2 and the Offset Retirement rate is applied to gross salary less
pretax benefits.3

We verified actual salaries paid and calculated differences as shown in the tables
below.

                                 CSRS Offset – Regular Employees4
                                  Reported     Verified
          Reporting                Salaries    Salaries   Difference
            Period                  (Millions)         (Millions)         (Millions)        Percentage
       September 2007                      $22.8              $17.2                $5.6           24.48
       March 2008                          $21.7              $15.4                $6.3           29.15

                    CSRS Offset – Law Enforcement Employees5
           Reporting     Reported      Verified
             Period       Salaries    Salaries   Difference Percentage
        September 2007      $50,815     $44,579       $6,236     12.27
        March 2008          $59,285     $52,220       $7,065     11.92

Audit Comment

The Postal Service stated that the report format has not been updated since 1996 and
does not provide clear instructions or directions for calculating pretax contributions.
This discrepancy, which we have reported since 2005, remains outstanding. The OPM
informed us they are working towards a solution for fiscal year 2009.

Employees Enrolled in Civil Service Retirement System Offset6

The Postal Service incorrectly reported the number of employees enrolled in “CSRS
offset with no deductions made” on the Supplemental Semiannual Headcount Report for
the September 2007 reporting period. This occurred because the Postal Service
inadvertently transposed the number.

OPM procedures require the Postal Service to carefully review all headcount reports
before submission and make any adjustments requested by OPM.7

We verified the actual number of enrolled employees with no deductions made and
calculated the difference as shown in the following table.
2
  The full CSRS rate for regular employees is 7.0 percent and for law enforcement employees is 7.5 percent.
3
  The offset retirement rate for regular employees is 0.8 percent and for law enforcement employees is 1.3 percent.
4
  This number includes 7,439 employees for September 2007 and 7,166 for March 2008.
5
  This number includes nine employees for September 2007 and 10 for March 2008.
6
  Procedure Number 5.
7
  CSRS and FERS Handbook for Personnel and Payroll Offices, Chapter 85, Headcounts – Sections 85A6.1-2.C,
Adjustments Requested by OPM, and 85A6.1-2.D, Other Errors.




                                                          2
Independent Report on Withholdings and Contributions for Health Benefits,      FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data



                          CSRS Offset – Regular Employees
                    Enrolled Employees with No Deductions Made
            Reporting Period Reported Verified Difference Percentage
            September 2007         386      368         18      4.66

The Postal Service was aware of the error but considered it immaterial and did not file
an amended Supplemental Semiannual Headcount Report. We found no evidence that
the OPM asked the Postal Service to submit a revised report.

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement, and the headcount report of the Postal Service.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported to you.

The sufficiency of the procedures is solely the responsibility of the Inspector General
and the Chief Financial Officer of the OPM. Consequently, we make no representation
regarding the sufficiency of the procedures described in the attachment, either for the
purposes for which this report has been requested, or for any other purpose.

This report is intended solely for the use of the Inspector General and the Chief
Financial Officer of the OPM and should not be used by those who have not agreed to
the procedures and taken responsibility for the sufficiency of the procedures for their
purposes.

If you have any questions, please contact John Cihota, Deputy Assistant Inspector
General for Financial Accountability, or Lorie Nelson, Director, Financial Reporting, at
(703) 248-2100.
   E-Signed by Gordon Milbourn
 VERIFY authenticity with ApproveIt




Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachments

cc: Mark Reger
    Michael R. Esser
    William W. Scott, Jr.




                                                    3
Independent Report on Withholdings and Contributions for Health Benefits,                          FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service Information Technology and Accounting Service Center in Eagan,
Minnesota, is responsible for the calculation, disbursement, and reporting of employee
withholdings and Postal Service contributions for health benefits, life insurance, and
retirement. As of March 7, 2008, the Postal Service employed more than 789,800
personnel (approximately 660,400 with benefit entitlements).

During each payroll period reviewed,8 the Postal Service withheld more than $82 million
and contributed about $303 million towards benefits. The Postal Service transmitted
these funds to the OPM via the Retirement and Insurance Transfer System (RITS) and
prepared the Report of Withholdings and Contributions for Health Benefits, Life
Insurance, and Retirement for each payroll period detailing the amounts associated with
each benefits category. Additionally, the Postal Service submitted the Supplemental
Semiannual Headcount Report to the OPM detailing the number of employees
associated with each benefits category for September 2007 and March 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assist the OPM in verifying:

    •   Employee withholdings and employer contributions reported on the Report of
        Withholdings and Contributions for Health Benefits, Life Insurance, and
        Retirement.

    •   Enrollment information reported on the Supplemental Semiannual Headcount
        Report.

To accomplish our objective, we applied the procedures included in Appendix B to the
pay periods ending August 31, 2007, and February 29, 2008, coinciding with the
Supplemental Semiannual Headcount Report for September 7, 2007, and March 7,
2008, respectively. We randomly selected the pay period ending on December 21,
2007, for additional testing.

We confirmed RITS data by verifying payroll source documents. For a sample of
45 employees,9 we reviewed personnel documents to verify salaries, retirement, and
the election or nonelection of health benefits and life insurance. For all employees, we
independently calculated employee withholdings, Postal Service contributions, and
enrollment information for health benefits, life insurance, and retirement. We compared

8
  This timeframe included approximately 82,500 employees who declined health benefits and approximately 1,300
employees who waived life insurance coverage.
9
  The universe for sample selection does not include approximately 159,900 employees who elected health benefits
and basic life insurance only (no optional coverage elected).




                                                        4
Independent Report on Withholdings and Contributions for Health Benefits,                  FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data


the results to actual employee withholdings and Postal Service contributions submitted
to OPM to determine whether differences existed.

We conducted this engagement from November 2007 through September 2008 in
accordance with the American Institute of Certified Public Accountants and generally
accepted government auditing standards attestation standards. The sufficiency of the
procedures is solely the responsibility of the Inspector General and the Chief Financial
Officer of the OPM. Consequently, we make no representation regarding the sufficiency
of the procedures described in Appendix B, either for the purposes for which this report
has been requested, or for any other purpose. We discussed our observations and
conclusions with management officials on August 26, 2008, and included their
comments where appropriate.

We relied on computer-generated data from the Postal Service’s Payroll System. To
validate the data, we traced the basic pay and benefit categories for selected
employees to supporting documentation, and we compared the results to the
computer-generated data.

PRIOR AUDIT COVERAGE

                              Report
      Report Title            Number          Final Report Date                Report Results
 Independent Report        FT-AR-07-013      September 20, 2007       Aggregate base salaries for the
 on Withholdings and                                                  Civil Service Retirement offset
 Contributions for                                                    employees on the Supplemental
 Health Benefits, Life                                                Semiannual Headcount Report
 Insurance,                                                           did not accurately reflect the
 Retirement, and                                                      actual salaries paid for the
 Employee Headcount                                                   reporting period. The U.S. Postal
 Data                                                                 Service Office of Inspector
                                                                      General (OIG) made no
                                                                      recommendations.
 Independent Report        FT-AR-06-017      September 26, 2006       Aggregate base salaries for the
 on Withholdings and                                                  Civil Service Retirement offset
 Contributions for                                                    employees on the Supplemental
 Health Benefits, Life                                                Semiannual Headcount Report
 Insurance,                                                           did not accurately reflect the
 Retirement, and                                                      actual salaries paid for the
 Employee Headcount                                                   reporting period. The OIG made
 Data                                                                 no recommendations.




                                                    5
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data


                       APPENDIX B: AGREED-UPON PROCEDURES




                                                    6
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                    7
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                    8
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                    9
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                   10
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                   11
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                   12
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                   13
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                   14
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-08-013
 Life Insurance, Retirement, and Employee Headcount Data




                                                   15
